                                                    U. S. Department of Housing and Urban Development
                                                                                  Office of Inspector General
                                                                                New York/New Jersey Office
                                                                             Jacob K. Javits Federal Building
                                                                               26 Federal Plaza – Room 3430
                                                                                  New York, NY 10278-0068



                                                           MEMORANDUM               NO.     2008-NY-0801


October 23, 2007

MEMORANDUM FOR: Nelson Bregon, General Deputy Assistant Secretary for Community
                                 Planning and Development, D


FROM: Edgar Moore, Regional Inspector General for Audit, 2AGA

SUBJECT: Community Development Block Grant Disaster Recovery Assistance Funds
         Lower Manhattan Development Corporation, New York, New York


                                           INTRODUCTION

Pursuant to a congressional mandate, 1 we recently issued the ninth audit report 2 in our series of
ongoing audits of the Lower Manhattan Development Corporation’s (LMDC) administration of
the Community Development Block Grant Disaster Recovery Assistance funds provided to the
State of New York following the September 11, 2001, terrorist attacks on the World Trade
Center in New York City. 3 During this audit, we noted that the final action plan, approved by
the U.S. Department of Housing and Urban Development (HUD) on December 6, 2006, did not
always specify projects to which funds were to be allocated, nor identify alternative funding
sources for some of the activities. The lack of specifics in the final action plan as approved will
lessen HUD’s ability to evaluate the extent to which future disbursements are in accordance with
the approved final action plan.

In accordance with HUD Handbook 2000.06, REV-3, within 60 days, please provide us for each
recommendation in this memorandum, a status report on (1) the corrective action taken, (2) the
proposed corrective action and the date to be completed, or (3) why action is considered
unnecessary. Additional status reports are required 90 days and 120 days after this memorandum

1
  Conference Report to Accompany H.R. 3338 (Report Number 107-350, page 456).
2
  Lower Manhattan Development Corporation Community Development Block Grant Disaster Recovery Assistance
Funds, New York, New York, 2007-NY-1013, September 28, 2007
3
  A total of $2.783 billion was awarded in two grants, a $2 billion grant for the World Trade Center disaster
recovery and rebuilding efforts and a $783 million grant for damaged properties and businesses, including the
restoration of utility infrastructure, as well as economic revitalization related to the terrorist attacks.
is issued for any recommendation without a management decision. Also, please furnish us
copies of any correspondence or directives issued because of this review.

Should you or your staff have any questions, please contact John Harrison, assistant regional
inspector general for audit, at (212) 264-4174.

                                 SCOPE AND METHODOLOGY

To document LMDC’s plans for the allocation of approximately $185 million of unallocated
funds from the $2 billion grant, we reviewed the final action plan submitted to HUD by LMDC
on November 3, 2006, and approved by HUD on December 6, 2006. We reviewed the one
proposed amendment to the final action plan, which was submitted for public comment on
March 26, 2007 and approved by HUD on July 11, 2007. We discussed the final action plan and
the amendment with LMDC and HUD officials. In addition, we reviewed the content of the
previously approved partial action plans to determine whether specific projects were to be
identified at a future date. We also discussed this memorandum report with HUD Community
Planning and Development (CPD) staff on September 21, 2007, and based upon CPD officials e-
mail comment that 24 CFR 91.220(c) is not applicable to LMDC’s final action plan, we removed
reference to that regulation.

We performed our on-site work from April through September 2007 at LMDC’s office located in
lower Manhattan, New York and at the auditee’s parent company, the Empire State Development
Corporation, in midtown Manhattan, New York.

                                          BACKGROUND

CDBG Disaster Recovery Assistance is authorized under Title I of the Housing and Community
Development Act of 1974, as amended. Funding is authorized to state or local government
grantees, and upon appropriation HUD notifies the grantee, which must develop and submit an
action plan for disaster recovery before any grant funds can be received. The action plan must
describe the needs, strategies, and projected uses of the disaster recovery funds.

LMDC has implemented this process with a series of 13 partial action plans and amended partial
action plans through which it has allocated the entire $2 billion grant as of May 1, 2007. The
$783 million was allocated through two separate partial action plans and their amendments. In
each partial action plan, LMDC identified the program and activity for the proposed expenditure
of funds. The plans were open to public comment for a minimum of 15 calendar days, after
which LMDC submitted the public comments and any revisions to the plan based upon the
comments to HUD for approval. Once HUD approved the plan, it made funds available for the
approved activities.

The final action plan for lower Manhattan disaster recovery and rebuilding efforts was prepared
and made available for public comment by LMDC from September 29 through October 30,
2006. The funding sources for the proposed allocations were unallocated funds and funds
reallocated through amended partial action plans 1, 2, 4, 6, 8, 9, and 11. No public comments



    Visit the Office of Inspector General on the World Wide Web at http://www.hud.gov/oig/oigindex.html
                                                      2
were received, and LMDC submitted the final action plan to HUD for approval on November 3,
2006. HUD approved the final action plan on December 6, 2006.

The final action plan allocated $184.95 million to the following six programs:

          Final action plan activities                                        Allocation
I. World Trade Center Memorial/Museum
Reserve Fund                                                                                    $ 45,000,000
II. Affordable housing                                                                          $ 12,000,000
III. Community and cultural enhancements                                                        $ 60,950,849
IV. Economic development                                                                        $ 30,000,000
V. Education                                                                                    $ 6,000,000
VI. Transportation improvements                                                                 $ 31,000,000
Total                                                                                           $184,950,849

Due to cost increases associated with the World Trade Center Memorial and Cultural Program,
specifically, the 130 Liberty Street deconstruction project, on March 26, 2007, LMDC submitted
for public comment the amended final action plan and amended partial action plans 2 and 7. The
amendments proposed to allocate an additional $30 million to the World Trade Center Memorial
and Cultural Program approved in partial action plan 7. The source of these funds was amended
partial action plan 2, which proposed reducing the allocation for the Job Creation and Retention
Program by $7 million, and the final action plan, which proposed reducing the allocation for
Economic Development by $23 million. The period for public comment closed on April 25,
2007, and no comments were received. HUD approved these amendments on July 11, 2007.

                                        RESULTS OF REVIEW

The approved final action plan did not identify specific programs, outcomes, and the amount and
sources of other anticipated funds for major activities, which were to be funded with $76 million
of the almost $185 million allocated. Previously approved partial action plans identified specific
programs and projects and did not refer to future dates for which specific projects were expected
to be named. As a result, we question why the final action plan did not follow the established
precedent.

The administration of the disaster assistance funds is subject to among other guidance, the
provisions published in Federal Register: dated May 22, 2002 (Volume 67, Number 99) Docket
Number FR-4732-N-04. These provisions established alternative requirements whereby the
State submits an action plan for recovery that includes a description of the activities assisted with
grant funds, an estimate of the number and type of beneficiaries of the proposed activities,
proposed accomplishments, and a target date for completion of each activity. Further, it provides
that an action plan should include information specified at 24 CFR (Code of Federal
Regulations) 91.220(b)(2), which requires that an action plan identify the nonfederal resources
that are reasonably expected to be available and explain how federal funds will leverage those
additional resources.



    Visit the Office of Inspector General on the World Wide Web at http://www.hud.gov/oig/oigindex.html
                                                      3
However, measuring accomplishments and assuring the adequacy of nonfederal sources of funds
needed for the successful completion of projects is made difficult by the lack of specifics in the
final action plan. Consequently, HUD will need to exercise increased oversight of these
activities to ensure the successful completion of the activities and that funding is secured from
other private and nonfederal public sources as planned.

Specific Programs Not Identified

The approved final action plan allocated $76 million to affordable housing, economic
development, education, and transportation improvement activities without specifying the scope
of the activities to be funded. Rather, the plan provided information on the general needs that the
funds would address and noted that specific activities would be identified at a later date. In
addition, agencies other than LMDC were to identify the projects to be funded and the amount of
funding. Consequently, we are concerned that the plan as approved does not provide enough
specifics on project selection and outcomes to permit meaningful monitoring of disbursements.
The following activities are those that need to be better defined:

Affordable Housing

LMDC identified the need for the creation of affordable housing as a key component of a strong
and vibrant lower Manhattan community. As a result, partial action plan 6 approved by HUD on
November 8, 2005, allocated $50 million for affordable housing programs and specifically
named five projects for which the funds would be spent. In the final action plan, LMDC
allocated $12 million for affordable housing, reallocating $8 million from one of the projects
identified in partial action plan 6 and adding an additional $4 million. The final action plan
provided that the New York City Department of Housing Perseveration and Development would
administer and allocate the $12 million to projects that provide affordable housing for low,
moderate, and middle-income residents. This would be done through the preservation of
Mitchell Lama or other affordable housing complexes, acquisition of new land or properties for
affordable housing, or the creation of incentives for the private sector to develop affordable
housing located in lower Manhattan at a maximum cost of $100,000 per housing unit preserved
or created. However, specific projects were not named; rather, the plan stated that projects to be
funded are expected to be identified by December 31, 2007, and completed by December 31,
2009.

Economic Development

The plan allocated $30 million for economic development initiatives in lower Manhattan;
however, no specific projects were identified. Rather, this activity was to be administered by the
New York City Economic Development Corporation, which would allocate funds to projects it
identifies and determines will increase economic activity in lower Manhattan by stimulating and
encouraging commercial and residential development, attracting businesses and residents to
locate in lower Manhattan, and/or providing short- and/or long-term jobs in lower Manhattan.
Projects to be funded were expected to be identified by December 2007 and completed by
December 2009. As previously noted, the current amendment to the final action plan reduced
this initiative by $23 million.

    Visit the Office of Inspector General on the World Wide Web at http://www.hud.gov/oig/oigindex.html
                                                      4
In addition, after the close of our audit period, LMDC submitted for public comment a proposed
$5 million grant program, the Lower Manhattan Small Firm Assistance Program, to provide
grants of up to $25,000 for businesses adversely affected by street closures related to publicly
funded construction. While this grant program will not be subject to formal HUD review
because it has already been approved in the final action plan, in the past, grant programs targeted
at individuals or businesses, such as the Residential Grant Program, Small Firm Attraction and
Retention Grant Program, Job Creation and Retention Program, and Disproportionate Loss of
Workforce Program, were all subject to HUD review and approval.

Education

LMDC identified providing adequate educational resources as a key component for retaining
families in lower Manhattan. Accordingly, the final action plan allocated $6 million for
education projects, of which $3 million was earmarked for the construction of the East Side K-8
School. The remaining $3 million would be allocated by the New York City Department of
Education and/or the School Construction Authority to projects that are consistent with the
Department of Education’s goals. These projects were not specified but are intended for
education purposes that would upgrade and/or create additional public school facilities including
classrooms, labs, theaters, and recreation space. Specific projects were scheduled to be
identified by December 31, 2007, and completed by December 31, 2009.

Transportation Improvement

Ensuring sufficient transportation is considered key to ensuring the continuing success of lower
Manhattan, and, therefore, the final action plan allocated up to $31 million for various
transportation initiatives that would benefit commuters, businesses, residents, and pedestrians in
lower Manhattan. Specific projects were not identified, but the plan provided that the City of
New York would allocate funds to projects that address one or more of the following initiatives:
enhance mobility; enhance connectivity between lower Manhattan, the rest of New York City,
and the surrounding area; promote the livability of lower Manhattan and/or support business
development; improve conditions for pedestrians and bicyclists; encourage the use of public
transportation; provide access to the streets for vehicles in need; reduce congestion on the streets;
promote traffic management and emergency response; and lessen the impact of construction on
residents, businesses, and tourists. The plan also provided that before funds were allocated to
specific projects, the City would seek public participation in the review of the project’s ability to
support one or more of these transportation initiatives. Transportation projects were expected to
be identified by December 31, 2007, and completed by December 31, 2009.

Amount and Source of Nonfederal Funds Not Specified

The final action plan also did not specify the source and amount of funds that may be used to
supplement the disaster assistance funds. For instance, the plan allocated $45 million to provide
a reserve fund for the World Trade Center Memorial/Museum that would be used for unexpected
events or unavoidable costs related to the construction of the Memorial/Museum, including
potentially excessive infrastructure costs. LMDC had already allocated approximately $263

    Visit the Office of Inspector General on the World Wide Web at http://www.hud.gov/oig/oigindex.html
                                                      5
million toward the estimated $510 million cost of the Memorial/Museum project. While the plan
noted that additional funds are anticipated from private contributions and other government
entities, including the New York and New Jersey Port Authority, it did not detail the source and
commitments for the projected $202.1 million in additional funds needed. Consequently, the
plan provides no assurance that these additional funds will materialize and does not indicate what
affect this would have upon the already committed HUD funds.


                                 CONCLUSION

While the action plan process can be an evolving one, the specific projects to which funds are to
be allocated in the final action plan were not always identified, and specific funding decisions
were assigned to other entities. We recognize that the final action plan was prepared and
approved at a time when the operation of LMDC as a going concern was in question, and this
may have resulted in the lack of specifics on certain projects. However, this question appears to
have been resolved for the immediate future. Consequently, the lack of specifics in the final
action plan as approved will lessen HUD’s ability to evaluate the extent to which future
disbursements are in accordance with the approved final action plan. In addition, the lack of
information on the nonfederal sources of funding for the World Trade Center Memorial/Museum
project lessens HUD’s assurance that the funds will be available and that the project will be
successfully completed as envisioned.

                                 RECOMMENDATIONS

We recommend that HUD’s general deputy assistant secretary for community planning and
development instruct LMDC to

1A. Provide specifics for HUD review for the activities and outcomes expected as a result of
    the funding approved in the final action plan for the affordable housing, economic
    development, education, and transportation projects.

1B. Identify the amount of private and nonfederal public resources available to date that are
    reasonably expected to be available for the completion of the Memorial/Museum to ensure
    that the allocated federal funds will sufficiently leverage those additional resources.




    Visit the Office of Inspector General on the World Wide Web at http://www.hud.gov/oig/oigindex.html
                                                      6
